audit report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenues by the Georgia Bureau of Investigation
GR-40-99-009
May 14, 1999
Office of the Inspector General

AUDIT RESULTS
The United States Department of Justice (DOJ), Office of the Inspector General, has completed an audit of the use of equitable sharing revenues by the Georgia Bureau of Investigation (GBI).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of criminal investigations.  The objective of our audit was to determine if the GBI complied with DOJ guidelines governing the use of equitably shared forfeited assets.  The audit included a review of current equitable sharing activities at the GBI.

	In brief, we found the GBI complied with Department of Justice guidelines. 

	Details of our work are contained in the Findings section of the report.  The audit background, scope, and methodology are contained in the Appendix.